U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 2, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Devan Pierson v. United States, No. 20-401
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 22,
2020. The government’s response was due on October 28, 2020. We respectfully request, under
Rule 30.4 of the Rules of this Court, an extension of time to and including November 27, 2020,
within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because of an oversight, this extension request is being filed 5 days late. We have
informed petitioner’s counsel of the oversight, and she has consented to the late extension
request. She has also stated that she does not oppose this extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0401
PIERSON, DEVAN
USA

ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
ERIN.MURPHY@KIRKLAND.COM

